No. 19-386

 

 

IN THE
Supreme Court of the United States
MONROE CouNTY COMMISSION,
Petitioner,
Vv.
A. A. NETTLES, SR. PROPERTIES LIMITED AND EULA LAMBERT BOYLES,
Respondents.
AFFIDAVIT OF SERVICE

 

 

I HEREBY CERTIFY that all parties required to be served, have been served, on this
12" day of November, 2019, in accordance with U.S. Supreme Court Rule 29.3, three (3)
copies of the foregoing BRIEF AMICI CURIAE OF RAILS TO TRAILS
CONSERVANCY, et al. IN SUPPORT OF PETITIONER by placing said copies in
the U.S. mail, first class postage prepaid, addressed as listed below.

Sarah Elaine Harrington John Doulas Lloyd
Goldstein & Russell, PC The Law Office of J.D. Lloyd
7475 Wisconsin Avenue 2151 Highland Avenue, S
Suite 850 Suite 310

Bethesda, MD 20814 Birmingham, AL 35205
(202) 362-0636 (202) 538-3340
sharrington@goldsteinrussell.com jdlloyd@jdlloydlaw.com

   
 

RAYMOND CHARLES CLARK
BYBON S. ADAMS, LEGAL & COMMERCIAL PRINTERS
1615 L Street, NW, Suite 100

Washington, DC 20036

(202) 347-8203

District of Columbia: SS

Subscribed and Sworn to before me this 12" day of November, 2019.

 

: IN PIERANGELI
oP" oF cov NOTARY PUBLIC, DISTRICT OF COLUMBIA
hep My Commission Expires June 14, 2020.

 

 
